n

n n\ n r\ n
■j

V

No.

/i_i i J

Siiprer-s Coi.irt, U.S~
FILED

/S-//L8

i o ;.w3

J

in m*

0?RCR OF 7H'.: CLERK

Supreme Court of tlje ®ntteb States!
JOSE MENDES DA COSTA,
Petitioner,
v.
CITY OF MOUNT VERNON POLICE DEP. POLICE
OFFICER PEREIRA, SGT. MARCUCILLI, POLICE
OFFICER CAMACHO, DET. JESUS GARCIA, EX. M.V.P.D.,
TOWN OF EASTCHESTER POLICE DEPT. DET. M.
MARTINS, CITY OF MOUNT VERNON LAW DEP. PI.
LENTINI, ATTORNEY AT LAW HINA SHERWANI, PRIV.
PARTIES, MARQUES, COELHO, CASTRO, RODRIGUES,
Respondents.

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Jose M. Da Costa
Petitioner Pro Se
86 Gramatan Ave., Apt. 40
Mount Vernon, N.Y. 10550
Tel. number: 914-774-3615
Email: jamdcaol@gmail.com

received
MAR 1 3 2020
MafmSTg
iU!

1

QUESTIONS PRESENTED
1. Whether the right to petition the government
for redress of grievances in 42 U.S.C. § 1983, U.S.
Const. Fourth and Fourteenth Amendments, and the
concepts set out by this Court in Lawler and Carstarphen, is violated by the procedure we challenge, that
is, the claim preclusion Res Judicata, Bar Order under
28 U.S.C. § 1651, the opinion is not a fact of Law, 42
U.S.C. 1983, 10-CV-4125, U.S. Const. Fourth Amend­
ment, battery assault, on November 27, 2008, decided
on the case facts by a stipulation of settlement, and
dismissal with prejudice at the U.S.D.C. for the
S.D.N.Y. on November 8,2012, do not preclude the sub­
sequent continued course of conduct in December 7,
2012,18-CV-2948, and contradicts American Jurispru­
dence 2d Judgments § 460; time of accrual of cause of
action as test for claim preclusion. If the cause of action
in the second action arises after the rendition of the
judgment in the first action, it is a different cause of
action not barred by the prior judgment. Lawler v. Na­
tional Screen Service Corp., 349 U.S. 322, 75 S Ct. 865,
99 L. Ed. 1122 (1955); Carstarphen v. Milsner, 594
F. Supp. 2d 1201 (2009).
2. Whether the right to a trial by a jury man­
dated by Fifth, Sixth and Fourteenth Amendments,
and U.S. Const, art. Ill § 2, cl. 3, and the concepts set
out by this Court in Apprendi, and Alleyne, was vio­
lated when the United States Court of Appeals for the
Second Circuit, affirm the District Court opinion of
claim preclusion res judicata Bar Order under 28
U.S.C. §1651, an Appellate Court sitting as a fact finder

r
!

fHVOOHH'
&;■■ 11 m

I

11

QUESTIONS PRESENTED - Continued
cannot affirm, a not factual position of Law, that was
not presented to a Jury, and where the § 1983 Civil
Rights Claim, for the seizure on false allegation of
Stalking 3rd, deprivation of Liberty for 47 days, the
two years and six months malicious prosecution until
2015, when the allegation was dismissed without a
trial by a Jury, and the City of Mount Vernon Court in
a trial without a jury find a verdict of guilty for a pre­
text allegation Harassment 2nd, whereas the Court
Clerk tamper with the public record by false written
statements on the Certificate of Disposition; plead
guilty to Harassment 2nd, in full satisfaction, the de­
vice of deceit, whether made intentional or by mistake
in the State of N.Y. is a Title K-Offences involving
fraud, Article 175 - Penal L. 175.25 (2012), 175.20
(2018) . . . implies the intent to contravene and infringe
the right to be free from unreasonable seizures, and
the right to a trial by a Jury, while purporting to be
authority, to conceal the infringements wrongdoing?
Apprendi v. New Jersey, 530 U.S. 466, S. Ct. 2348,147
L. Ed. 2d 435 (2000); Alleyne v. United States, 133
S. Ct. 2151,186 L. Ed. 2d 314 (2013).
3. Pursuant to 42 U.S.C. § 1983, Civil Rights
claims Fourth, Fourteenth Amendments Due Process
of law, and the concepts set out by this Court in Monell,
and Owen, the United States Court of Appeals for the
Second Circuit, de novo review decision to affirm the
District Court res judicata Bar Order under 28 U.S.C.
§ 1651, that, is not a fact of Law was rendered in error
against the § 1983, prima facie Const. Law tort, for

Ill

QUESTIONS PRESENTED - Continued
unreasonable seizure, the denial of Procedural Due
Process of Law right to a trial by a jury malicious pros­
ecution, and the negligent abuse of process by the City
of Mount Vernon Court false written statements on the
Certificate of Disposition, entered into the records dur­
ing business transactions, are undisputed facts of in­
fringement of Const. Civil Rights claim for loss of
Liberty, that in part, on review could be held unconsti­
tutional, moreover on petition for rehearing en banc,
the Appellate Term of the S. Ct. of the State of New
York, 9th & 10th Judicial Districts, Decision Order on
February 21, 2019, People v. Da Costa, Jose, App. Term
doc. # 2015-1433 W CR (2019), reversed the trial with­
out a jury verdict, and dismiss the lower Court doc. #
12-4996, accusatory instrument, the U.S.C.A. for the 2d
Cir. Denied rehearing on the Judicial Notice, and
mooted the reversal by res judicata, hence the contin­
ued course of conduct forfeitures by wrongdoing fraud­
ulent concealment, are pervasive to infringe on Const.
Amendments Law, and to force the loss of a remedy in
42 U.S.C. § 1983, this is unacceptable, petitioner ask
the Court for a de novo review for the City of Mount
Vernon Court, gross misconduct, before the District
Court opinion in error of res judicata claim preclusion,
Bar Order under 28 U.S.C. § 1651, and the Appellate
Court Affirmed. See: App. 20-22, and App. 23-32. Monell v. Department of Social Services of New York, 436
U.S. 658,690, 98 S. Ct. 2018,2035-36,56 L. Ed. 2d 611,
635 (1978); Owen v. Independence, 445 U.S. 622,100 S.
Ct. 1398, 63 L. Ed. 2d 673,1980 U.S. LEXIS 14.

IV

CERTIORARI RULE 14 COURT DECISIONS
Mendes Da Costa v. Marcucilli, No. 18-1859, U.S. Court
of Appeals for the Second Circuit, Judgment, Summary
Order, entered Oct. 31, 2019.
Mendes Da Costa v. Pereira, No. 18-2948, U.S. District
Court for the Second Circuit, Judgment, claim preclu­
sion Bar Order under 28 U.S.C. § 1658, entered June
12, 2018.
Mendes Da Costa v. Pereira, No. 18-2948, U.S. District
Court for the Second Circuit, judgment, Order of dis­
missal and to show cause under 28 U.S.C. § 1658, en­
tered May 14, 2018.
People v. Da Costa, Jose, App. term doc. # 2015-1433 W
CR, Appellate Term of the Supreme Court of the State
of New York for the 9th & 10th Judicial Districts, Judg­
ment, Decision & Order, Reversed and Dismissed en­
tered February 28, 2019.
People v. Da Costa, Lower Court doc. No. 12-4996, City
of Mount Vernon Court, N.Y., Judgment, 1 charge dis­
missed, Certificate of Disposition false written state­
ments read; plead guilty, after a no jury trial finding of
a guilty verdict, entered May 12, 2015.
Mendes Da Costa v. Marcucilli, No. 18-1859, U.S. Court
of Appeals for the Second Circuit, Judgment, Order, de­
nial for rehearing, entered December 11, 2019.

V

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

l

CERTIORARI RULE 14 COURT DECISIONS...

iv

TABLE OF CONTENTS

v

TABLE OF AUTHORITIES .... ..............................

Vll

OPINIONS BELOW................................................

1

STATEMENT OF JURISDICTION............ .........

2

RELEVANT CONSTITUTIONAL PROVISIONS....

2

STATEMENT OF THE CASE

4

Introduction

4

Background Facts............. .....................

7

STANDARD OF REVIEW.........................

14

REASONS FOR GRANTING THE WRIT

14

CONCLUSION AND PRAYER.................

34

APPENDIX
United States Court of Appeals for the Second
Circuit of New York, Summary Order to affirm
the District Court decision filed October 31,
2019....:................................ ............... :............. App. 1
United States District Court for the Southern
District of New York, Bar Order Under 28
U.S.C. § 1651, filed June 12, 2018.................... App. 8
United States District Court for the Southern
District of New York, Order of Dismissal and
Show Cause, Opinion filed May 14, 2018..... App. 11

VI

TABLE OF CONTENTS - Continued
Page
Appellate Term of the Supreme Court of the
State of New York for the 9th & 10th Judicial
Districts, Decision & Order, reversed, and dis­
missed, Opinion filed February 28,2019
App. 20
City Court of Mount Vernon, N.Y., Decision filed
on May 12, 2015
App. 23
United States Court of Appeals for the Second
Circuit of New York, Order Denial of Rehear­
ing En banc filed December 11, 2019
App. 35

Vll

TABLE OF AUTHORITIES
Page
Cases
Apprendi v. New Jersey, 530 U.S. 466, 120 S. Ct.
2348,147 L. Ed. 2d 435 (2000)
5, 22, 24, 27
Arroyo v. Wheat, 591 F. Supp. 141 (D. Nev. 1984)

17

Bell Atl. Corp. u. Twombly, 550 U.S. 544, 127
S. Ct. 1955,167 L. Ed. 2d 929 (2007)................

33

Carstarphen v. Milsner, 594 F. Supp. 2d 1201
(2009)........................................................................ 5,16
Cook v. Sheldon, 41 F.3d 73 (2d Cir. 1994)...........

33

DaCosta u. Marcucilli, 675 Fed. Appx. 15 (2017).

11

Harkins Amusement Enters., Inc. v. Harry Nace
Co., 890 F.2d 181 (9th Cir. 1989).........................

19

Harris v. United States, 536 U.S. 545, 122 S. Ct.
2406,153 L. Ed. 2d 524, 2002 U.S. Lexis 4652

27

Hatch v. Boulder Council, 471 F.3d 1142 (10th
Cir. 2006).................................................................

19

Irnbler v. Pachtman, 424 U.S. 409 (1976).............

30

In re Winship, 397 U.S. 358,25 L. Ed. 2d 368,90
S. Ct. 1068(1970)..................................................

25

Jones v. United States, 526 U.S. 227 (1999).........

26

Lawler v. National Screen Service Corp., 349 U.S.
322,75 S. Ct. 865, 99 L. Ed. 1122 (1955).... 5,15,18
Lee v. City ofL.A., 250 F.3d 668 (9th Cir. 2001) ....17,18

Vlll

TABLE OF AUTHORITIES - Continued
Page
Manuel v. City of Joliet, III., 137 S. Ct. 911 (2017).......33
Marvel Characters, Inc. v. Simon, 310 F.3d 280
(2d Cir. 2002)..........................................................

10

Mapp v. Ohio, 367 U.S. 643, 81 S. Ct. 1684, 6
L. Ed. 2d 1081(1961)...........................................

32

Mendes Da Costa v. Pereira, 18-CV-2948, 2018
U.S. Dist. LEXIS 81924
7, 9, 21, 29
Mendes Da Costa v. Marcucilli, 18-1859, U.S.
App. LEXIS 32565 (2019)___Fed. Appx.___
2019 WL 5618160.................................................. 2,10
Monell v. Department of Social Services of New
York, 436 U.S. 658,98 S. Ct. 2018,56 L. Ed. 2d
611 (1978)
6, 29, 31
Odom v. Microsoft Corp., 486 F.3d 541 (9th Cir.
2007)........................................................................

17

Owen v. Independence, 445 U.S. 622, 100 S. Ct.
1398, 63 L. Ed. 2d 673,1980 U.S. LEXIS 14......6, 30
People v. Da Costa, Jose, App. term doc. # 20151433 W CR (2019) at: www.law.Justia.com.....

29

Rawe v. Liberty Mut. Fire Ins. Co., 462 F.3d 521
(6th Cir. 2006).........................................................

19

Round Hill Gen. Improvement Dist. v. B-Neva,
Inc., 96 Nev. 181, 606 P.2d 176 (Nev. 1980).....

19

Salve Regina College v. Russell, 499 U.S. 225,
111 S. Ct. 1217,113 L.Ed.2d 190 (1991)..........

14

Semegen v. Weidner, 780 F.2d 727 (9th Cir. 1985)..... 17

IX

TABLE OF AUTHORITIES - Continued
Page
Sullivan v. Louisiana, 508 U.S. 275,124 L. Ed. 2d
182,113 S. Ct. 2078 (1993)..................................

25

United States v. Alleyne, 133 S. Ct. 2151, 186
L. Ed. 2d 314 (2013).............................................. 5, 26
United States v. Gaudin, 515 U.S. 506, 132
L. Ed. 2d 444,115 S. Ct. 2310 (1995)................

25

United States v. Ritchie, 342 F.3d 903 (9th Cir.
2003)................................................ ........................

18 .

Constitutional Provisions
U.S. Const. Amend. IV........

.passim

U.S. Const. Amend. V..........

.passim

U.S. Const. Amend. VI........

passim

U.S. Const. Amend. XIV......

passim

U.S. Const, art. Ill § 2, cl. 3.

22

Statutes
N.Y. Title K-Offences involving fraud, Article 175,
Penal L. 175.25 (2012), 175.20 (2018)
5, 21, 23
Coercion Statute, Public Health and Morals
Offences Title M, Article 230 P.L. 120.40.........

12

Other Authorities
42 U.S.C. § 1983.....

passim

American Jurisprudence 2d Judgments § 460.... 4,10,14

X

TABLE OF AUTHORITIES - Continued
Page
Fed. R. Civ. P. 8(a)..................................

17

Fed. Rule of Civ. Proc. 9(b)....................

7,17, 20

Fed. Rule of Civ. Proc. 12(b)(6).............

6,17

Federal Rule of Evidence 804(b)(6)......

34

New York General Municipal Law ~ 50

34

1
TO THE HONORABLE JUSTICES OF THE
SUPREME COURT OF THE UNITED STATES:
Petitioner Jose da Costa respectfully petitions for
a writ of certiorari to review the judgment of the
United States Court of Appeals for the Second Circuit

OPINIONS BELOW
The opinion of the Mount Vernon City Court, false
written statements, conviction type; plead guilty, is
unpublished and, appears at App. 23 (I) The opinion of
the Appellate Term of the Supreme Court of the State
of New York, 9th & 10th Judicial Districts, reversing
the verdict of the no jury trial and entering a judgment
of acquittal, is published at www.law.Justia.com.,
People v. Da Costa, Jose, App. term doc. # 2015-1433 W
CR (2019), lower court 12-4996, and appears at App. 20
(II) The opinion of the United States District Court for
the Second District of New York, Order of Dismissal
and to Show Cause Under 28 U.S.C. §1658 is published
at Mendes Da Costa v. Pereira, 18-CV-2948, 2018 US.
Dist. LEXIS 81924, and appears at App. 11 (III) The
opinion of the United States District Court for the Sec­
ond Circuit of New York, Bar Order Under 28 U.S.C.
§1658, is unpublished, see: (III), and appears at App. 8.
(IV) The opinion of the United States Court of Appeals
for the Second Circuit of N.Y. affirming the U.S.D.C. for
the S.D.N.Y. Bar Order Under, 28 U.S.C. §1658, is pub­
lished at Mendes Da Costa v. Marcucilli, 18-1859, U.S.
App. LEXIS 32565 (2019)
Fed. Appx.
, 2019 WL

2

5618160 and appears at App. 1. (V) The opinion of the
United States Court of Appeals for the Second Circuit
of N.Y., denying Rehearing en banc is unpublished, see;
(V), and appears at App. 35 (VI).
Notice: Roman numerals, pertain to this petition for
Writ of Certiorari

STATEMENT OF JURISDICTION
On December 11, 2019, the United States Court of
Appeals for the Second Circuit of N.Y., denied Rehear­
ing En banc to affirm the U.S.D.C. for the S.D.N.Y.
opinion of Res Judicata claim preclusion Bar Order
Under, 28 U.S.C. §1651,Mendes Da Costa v. Marcucilli,
18-1859, U.S. App. LEXIS 32565 (2019)
Fed. Appx.
, 2019 WL 5618160, this Court has Jurisdiction.

RELEVANT CONSTITUTIONAL PROVISIONS
The Fourth Amendment to the United States Con­
stitution provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue but
upon probable cause, supported by Oath or af­
firmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
U.S. Const. Amend. IV

3
The Fifth Amendment to the United States Con­
stitution provides in relevant part:
No person shall... be subject for the same of­
fence to be twice put in jeopardy of life or limb,
nor shall be compelled in any criminal case to
be a witness against himself nor be deprived
of life, liberty, or property, without Due Pro­
cess of law . . .
U.S. Const. Amend. V
The Sixth Amendment to the United States Con­
stitution provides:
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by
an impartial jury of the State and district
wherein the crime shall have been committed,
which district shall have been previously as­
certained by law, and to be informed of the na­
ture and cause of the accusation; to be
confronted with witnesses against him; to
have compulsory process for obtaining wit­
nesses in his favor, and to have the Assistance
of Counsel for his defense.
U.S. Const. Amend. VI
The Fourteenth Amendment to the United States
Constitution provides in relevant part:
No State shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any
State deprive any person of life, liberty, or
property, without Due Process of law; nor

4
deprive any person within its jurisdiction the
equal protection of the laws.
U.S. Const. Amend. XIV

STATEMENT OF THE CASE
Introduction
This case presents three issues pertaining to 42
U.S.C. §1983 Civil Rights, the United States Appellate
Court for the Second Circuit affirm the District Court
opinion, of claim preclusion Res Judicata Bar Order
Under 28 U.S.C. § 1651, that by not being in fact Res
Judicata, infringe on the Fourth Amendment right
against unreasonable seizures, Sixth Amendment
right to a trial by a jury, and the Due Process Clauses
of the Fifth and Fourteenth Amendments application
in Federal Court to guaranty individuals protection
from mistaken or unjustified deprivation of life, liberty,
or property on the basis of an erroneous or distorted
conception of the facts or the law, and to limit the gov­
ernment’s power to infringe on certain constitutional
freedoms.
First, the United States Court of Appeals finding
of sufficient evidence to affirm the District Court’s de­
cision for the element of claim preclusion Res Judicata,
contradicts American Jurisprudence 2d Judgments
§ 460, time of accrual of cause of action as test for claim
preclusion. If the cause of action in the second action
arises after the rendition of the judgment in the first
action, it is a different cause of action not barred by the

5

prior judgment, in violation of the right to petition for
redress of grievances invoking the protections of the
Fourth and Fourteenth Amendments and the concepts
set out by this Court in Lawler v. National Screen Ser­
vice Corp., 349 U.S. 322, 75 S. Ct. 865, 99 L. Ed. 1122
(1955) Carstarphen v. Milsner, 594 F. Supp. 2d 1201
(2009).
Second, the United States Court of Appeals sitting
as fact finder cannot affirm the District Court Res
judicata claim preclusion, decision that is not factual,
where the important human values, such as the law­
fulness of the continuing personal restraint of Liberty,
by the City Mount Vernon Court prosecutor negligent
lack of proof, denial of a trial by jury, in violation Fifth,
Sixth, and Fourteenth Amendments, and Due Process
Clauses and the concepts set out by this Court in
Apprendi and Alleyne, in vindication of loss of Liberty
Civil Rights §1983, and infringement on a prima facie
claim of 1.) The unreasonable seizure of 47 days on
false allegation of Stalking 3rd, 2.) Two years and six
months wait for a trial by a Jury that was denied on
account of dismissal that is an acquittal. 3.) City Court
trial without no Jury, guilty verdict from a pretext false
allegation of Harassment 2nd. 4.) The City Court Clerk
false written statements on the Certificate of Disposi­
tion: Plead guilty to Harassment 2nd, in full satisfac­
tion, implied tampering with public records whether
made intentional or by mistake in the State of N.Y. is
a Title K-Offences involving fraud, Article 175-Penal L
175.25 (2012), 175.20 (2018), 5.) Appellate Term of the
Supreme Court for the State of New York, Docket No.

6

2015-1433 W CR, Lower Court Doc. No. 12-4996, that
on February 21, 2019, reversed and dismiss the accu­
satory instrument, and 6.) Proof of the acquittal, and
false written statements fraud, account that on enter­
ing a plea of guilty, there could not been in fact Law an
appeal, is the appellate Court, reversal and dismissal
of the accusatory instrument, equivalent to acquittal?
Lastly, under 42 U.S.C. § 1983, Civil Rights claim
for loss of Liberty, invoking the protections of the
Fourth and Fourteenth Amendments Due Process
Clause, and Fifth Amendment protection from depri­
vation of life, liberty, or property without Due Process
of Law, and the concepts set out by this Court Monell
v. Department of Social Services of New York, 436 U.S.
658, 690, 98 S. Ct. 2018,2035-36, 56 L. Ed. 2d 611, 635
(1978). And, Owen v. Independence, 445 U.S. 622, 100
S. Ct. 1398; 63 L. Ed. 2d 673, 1980 U.S. LEXIS 14, is
violated by the procedure we challenge, that is the un­
reasonable seizure, the denial of trial by a jury mali­
cious prosecution, and false written statements during
a business transaction tampering with the City Court
Certificate of Disposition, that include dates, the per­
sons, the place, who did what, and the undisputed facts
of law, by simple, clear, and concise statements within
liberal interpretation of a well pleaded petition to the
Court, petitioner asks this Court to review the decisions
in this petition by District Court Hon. Judge Cathy
Seibel, who was the sitting Judge for the stipulation set­
tlement, and dismissal with prejudice of 42 U.S.C.
§ 1983 10-CV-4125, and has since the first grievance
matters at hand, denied federal Court rule 12(b)(6),

7
standard of liberal interpretation for review of claims,
and ignored rule 9(b) standard for heightened review,
but has throughout applied an erroneous and distorted
conception of fact law, to the limit of government’s
power to infringe on certain constitutional freedoms,
to argue by wrong erroneous inferences 1.) Petitioner
wants to litigate matters that were decided in
(DaCosta I) 2.) Failure to state a claim on which relief
may be granted in (DaCosta II), and 3.) Flagrantly
stating wrong dates on opinions Mendes Da Costa v.
Pereira, 18-CV-2948,2018 U.S. Dist. LEXIS 81924, P 2,
at Discussion “He challenges actions taken by the de­
fendants and this Court in Mendes da Costa I, which
was dismissed with prejudice on December 14, 2012,
based on a settlement agreement reached by all par­
ties” in (DaCosta III), this point is incorrect, 10-CV4125 was decided on November 8, 2012, the retaliatory
seizure take place on December 6, 2012, and it is from
Hon. Judge Seibel, failure to correct the continuum of
errors apparent from record that the opinions have be­
come distorted, an appellate court sitting as a fact
finder, cannot affirm a decision that is not factual on a
case that was not presented in a trial to a Jury.
Background Facts
Petitioner DaCosta was subject to a retaliation
seizure by the City of Mount Vernon P.D., N.Y. on false
allegation of PL 120.50 Stalking 3rd, for saying you
people take one minute with forgery of evidence but
you take forever to turn yourselves over to the author­
ities, to a person named Vera Almeida, P.O. Pereira

8

sign the accusatory instrument December 7, 2012, and
bail was set $2000.00, for the accusation that mandate
trial by a jury, on December 10,2012, P.O. Yant not pre­
sent at arrest sign an accusation instrument for viola­
tion PL 2402602 V2 Harassment 2nd, the pretext
superseding misdemeanor information, and impris­
oned 47 days, at the Westchester C. J., until January
12, 2013, after posting payment for bail.
Petitioner was forced to appear at the City Court
every two months under the condition of an arrest war­
rant not be issued, that on execution would forfeit the
bail, until March of 2015, when the prosecutor dismiss
the false allegation Stalking 3rd, on pretext of the
Court was proceeding to a trial without a Jury for Har­
assment 2nd, where Almeida testify not to know de­
fendant, but he had followed her since October 2012,
and only calling the police on December 6,2012, and in
April 2013, petitioner testify to have deposed Almeida
at the U.S.D.C., the deposition transcript on July 12,
2011, is evidence of false testimony, and a letter from
pro bono Attorney Professor at Law Michael Martin,
stating on October 2012, law intern Jordan Franklin
call the Mount Vernon Law Department Attorney Hina
Sherwani, asking for the selective policing to stop, af­
ter petitioner was harassed by Castro at 114 Gramatan Avenue, while on the 1st floor Marques Bar, police
detectives were taking photos they plan to use as evi­
dence for the false allegation Stalking 3rd, hereto, the
City Court prosecutor denial for a trial by a Jury, and
Hon. Judge Hellen A. Blackwood suppression of evi­
dence in favor of petitioner at a trial without a jury, for

9
a pretext Harassment 2nd, to find a verdict of guilty
and perform 30 hours of community service, and the
City Court Certificates of Disposition for Doc. No. 124996, false written statements fraud, of the petitioner
plead guilty in full satisfaction after the infringement
to contravene U.S. Const. Law of Civil Rights 42 U.S.C.
§1983. The appeal to the Appellate Term of the Su­
preme Court for the State of New York Docket No.
2015-1433 W CR, Lower Court Doc. No. 12-4996, that
on February 21, 2019, was reversed and dismissed the
accusatory instrument, is an acquittal from the pretext
false allegation instrument verdict.
Petitioner DaCosta, file 42 U.S.C. §1983, 18-CV2948, on April 3, 2018, at the U.S.D.C. for the S.D.N.Y.,
The Daniel Patrick Moynihan Court House in the City
of New York, because, in the City of White Plains, at
the Hon. Charles L. Brieant Jr. Court House, I sin­
cerely believe Hon. C. Seibel, opinions, to be biased in
matters of Const. Law and fact, and I do not trust the
opinions based on a continuum of fundamental errors
on record.
Hon. Judge George B. Daniels, was assigned 18CV-2948 (G.B.D.), and on May 7,2018 petitioner request
for a Clerk’s Certificate of Default for the defendants
after defendants fail to file a brief for their defense. On
Notice of Reassignment Hon. Judge Seibel, 18-CV-2948
(C.S.) May 14, 2018, on the very same day decide the
Order of Dismissal and show cause under 28 U.S.C.
§ 1651, complaint is dismissed because it is barred
under the doctrine of claim preclusion. See: Mendes Da
Costa v. Pereira, 18-CV-2948, 2018 U.S. Dist. LEXIS

10
81924, at Discussion. It is clear that Plaintiff brings
this action seeking to relitigate his prior claims in the
complaints before this Court. He challenges actions
taken by the defendants and this Court in Mendes da
Costa I, which was dismissed with prejudice on Decem­
ber 14,2012, based on a settlement agreement reached
by all parties. Because Mendes da Costa I was dis­
missed with prejudice, Plaintiff may not bring another
action attacking that judgment. See Marvel Charac­
ters, Inc. v. Simon, 310 F.3d 280, 287 (2d Cir. 2002).
Petitioner argued in declaration to show cause on
June 7, 2018, at P. 9, the settlement date November 8,
was terminated November 14, 2012, 10 CV 4125, on
December 14, 2012, “petitioner was in prison for one
week, not at a settlement agreement by all parties” the
error contradict, American Jurisprudence 2d Judg­
ments § 460, time of accrual of cause of action as test
for claim preclusion, if the cause of action in the second
action arises after the rendition of the judgment in the
first action, it is a different cause of action not barred
by the prior judgment, and June 12, 2018, Hon. Judge
Seibel, opinion, Res Judicata claim preclusion Bar Or­
der under 28 U.S.C. 1651, Petitioner Appeal June 27,
2018 to the United States Court of Appeals for the
Second Circuit of N.Y., and the Appellate Court, affirm
the erroneous grounds of claim preclusion res judicata,
see: Mendes Da Costa v. Marcucilli, 18-1859. U.S. App.
LEXIS 32565 (2019) __ Fed. Appx. __ . 2019 WL
5618160, at Overview P. 1, HOLDING: [1]-A district
court properly dismissed a pro se complaint as barred
by res judicata . .. his addition of one new defendant

11
did not alter the outcome . .. and motion for judicial
notice is denied as moot. On November 14, 2019, the
petition for rehearing En banc was denied, the motion
for judicial notice is mooted by Res Judicata on Decem­
ber 11, 2019.
Petitioner previously file 10-CV-8500, October 28,
2015, for the December 6, 2012, unreasonable seizure,
denial of a trial by a jury malicious prosecution, and
the City Court abuse of process false written state­
ments, Hon. Judge Seibel, in knowledge of facts for ter­
mination of previous Civil Rights Claim, opinion in
error, that, 10-CV-4125, was decided on December 13,
2012, and the complaint was 312 pages, and dismiss
the complaint as frivolous, after petitioner argued in
amended complaint, the Civil Rights Claim is 32 pages,
a claim where relief can be granted is stated in detail
for at pages 6 thru 8, and Complaint pages 9 thru 20,
the other pages are, authorities, injuries, damages,
and evidence, amended claim is 20 pages . . . , on ap­
peal to the U.S.C.A. for the S.D.N.Y., See: DaCosta v.
Marcucilli, 675 Fed. Appx. 15 (2017), the Appellate re­
view argue,. . . while the claim contains some factual
allegations concerning Mendes Da Costa’s various ar­
rests, it is virtually impossible to link the various de­
fendants to Mendes DaCosta’s alleged injuries . . .
failure to follow F.R.C.P. 8.

12
Special Circumstances of Government Corrup­
tion, Fraud, Waste
Defendants wearing the colors of the State of
New York, Inter Alias with defendants City of Mount
Vernon residents. Petitioner resident of the City of
Mount Vernon, 86 Gramatan Avenue, on November 6,
Doc. 01-5100, and the 27, 2008, Doc. 08-5504, was sub­
ject of two battery assaults at 123 Gramatan Ave., and
complain to Captain Barbara Duncan, at the interview,
I object to Sgt. Marcucilli, because he was the senior
official who threaten me and proceed with threats of
immediate arrest, and any relief I sought would be
thwarted. On June 1, 2009, Doc. 09-2158, a door closer
was removed from 114 Gramatan Ave., a Marques
rental inter vivo, petitioner was arrested on false al­
legation of property damage, and imprisoned until
March 14, 2010, on May 19, 2010, I file 10-CV-4125,
for November 27, 2008, assault, during pretrial defen­
dants claim June 1, 2009, arrest was their probable
cause of action for November 27, 2008, this do not do
well as a pleading, I now know the arrests were being
used as a device to force pleadings into action or inac­
tion, and research the Coercion Statute, Public Health
and Morals Offences Title M, Article 230 PL. 120.40
under the sub-heading of “stalking” “course of conduct”
“intent to defraud”, I also depose Vera Almeida at
U.S.D.C., deposition transcript on July 12, 2011, and
February 28,2012,10-CV-4125, Doc. 62, at P. 20,1 spec­
ify defendants future intent to false allegation Stalk­
ing and accuser Almeida.

13
During 10-CV-4125 proceedings, petitioner DaCosta, was being now harassed with physical harm
threats by the Inter alias defendants, and to deter their
threats I went to the Antitrust Division of N.Y. to re­
port business in the red by Marques, and Coelho at the
site of the incidents, the result of which subpoenaed
records show that, Coelho 117 Gramatan Ave. Pizzeria
was order seized, and at a Government Accredited
Agency, 88 Lincoln Ave. Elks 707, where Coelho could
not had obtained a lease was ordered seized, I sub­
poena Marques irregular Bank records, I know seized,
but he decline, City of Mount Vernon Law Department
P.I. Lentini, used to be a patron of Cecilia’s salon at 114
Gramatan Ave., Marques rental inter vivo under his
Bar where the forgery of evidence removal of a door
closer for the property damage allegation, and the Peo­
ples witness Vera Almeida, is employed.
The retaliation seizure of December 6,2012, at 120
Gramatan Ave., the Peoples witness Vera Almeida,
that was deposed by petitioner at the U.S.D.C., deposi­
tion transcript on July 12, 2011, and Marques Bar on
1st floor above the rental inter vivos at 114 Gramatan
Avenue where Almeida is employed, and Coelho’s
seized Pizzeria at 117 Gramatan Ave., prove a nexus to
the defendants, the records of business in the red sei­
zures, are with the petitioner, and at the U.S.D.C., are
extensive in volume of 100 pages in detail of the pecu­
niary gain unlawful businesses, and City of Mount
Vernon Law Department P.L Lentini, patronage of Ce­
cilia’s salon at 114 Gramatan Avenue, where the for­
gery of evidence to allege property damage take place,

14
and the alleged Stalking 3rd, Peoples witness Almeida,
is employed.

STANDARD OF REVIEW
Because this petition involves the interpretation
of federal constitutional law and prior holdings of this
Court, the standard of review is de novo. See Salve
Regina College v. Russell, 499 U.S. 225, 231-32, 111
S. Ct. 1217,113 L.Ed.2d 190 (1991).

REASONS FOR GRANTING THE WRIT
ISSUE ONE: Whether the right to petition gov­
ernment for redress of grievances in 42 U.S.C. §1983
U.S. Const. Fourth, and Fourteenth Amendments, and
the concepts set out by this Court, in Lawler, and Carstarphen is violated by the procedure we challenge, that
is, claim preclusion Res Judicata, Bar Order under
28 U.S.C. §1651, the opinion is not factual of Law, for
42 U.S.C. §1983 Mendes Da Costa v. Macucilli 10-CV4125, U.S. Const. Fourth Amendment, battery assault
November 27 of 2008, decided on the case facts by a
stipulation of settlement, and dismissal with prejudice
at the U.S.D.C. for the S.D.N.Y. on November 8, 2012,
do not preclude subsequent course conduct on Decem­
ber 6, 2012,18-CV-2948, the decision is erroneous.
The American Jurisprudence 2d Judgments § 460,
Time of accrual of cause of action as test for claim

15
preclusion. If the cause of action in the second action
arises after the rendition of the judgment in the first
action, it is a different cause of action not barred by the
prior judgment. In Lawler v. National Screen Service
Corp., 349 U.S. 322, 75 S. Ct. 865, 99 L. Ed. 1122
(1955). The issue was whether the present suit was
barred under the doctrine of res judicata by the former
judgment of dismissal. This question was answered in
the negative in an opinion by Warren, Ch. J., speaking
for a unanimous court. The decision was rested on the
ground that under the facts stated above the second
suit involved a different cause of action and that the
result was not affected by the circumstance that the
complaint in the former suit, in addition to treble dam­
ages, sought injunctive relief which, if granted, would
have prevented the illegal acts complained of in the
second suit. With respect to five defendants who were
not parties to the former suit, the decision was also
rested on the ground that these defendants were not
privies of the defendants in the former suit. In 1949,
petitioners brought a similar action against the same
defendants, plus five additional motion picture produc­
ers, alleging that settlement of the 1942 suit was
merely a device used to perpetuate the conspiracy and
monopoly, that the five additional producers had since
joined the conspiracy, and that National Screen had de­
liberately made slow and erratic deliveries under the
sublicense in an effort to destroy petitioners’ business
and had used tie-in sales and other means of exploiting
its monopoly power. Petitioners sought damages for
only those injuries sustained after the 1943 judgment.

16
Held: The 1949 action was not barred by the 1943 judg­
ment under the doctrine of res judicata. Pp. 323-330.
It is of course true that the 1943 judgment dis­
missing the previous suit “with prejudice” bars a later
suit on the same cause of action. It is likewise true that
the judgment was unaccompanied by findings and
hence did not bind the parties on any issue - such as
the legality of the exclusive license agreements or their
effect on petitioners’ business - which might arise in
connection with another cause of action. To this extent
we are in accord with the decision below. We believe,
however, that the court erred in concluding that the
1942 and 1949 suits were based on the same cause of
action.
Hon. Judge Seibel, siting at trial of defendants
to §1983 10-CV-4125, Sgt. Marcucilli, P.O. Martins,
Camacho, and Garcia, adjudge matters of the Novem­
ber 27,2008 assault only, allowing at closing for expert
witnesses to testify in favor of defendants, while deny­
ing expert witnesses to testify in favor of petitioner,
Hon. Seibel do not decide any matters of the June 1,
2009, Doc. 09-2158, inter alias tortfeasors, because the
trespass evidence obtained after the fact by forgery, of
an identical facts case to pad defendants at trial with
probable cause was unconstitutional. In Carstarphen
v. Milsner, 594 F. Supp. 2d 1201 (2009), Edward C.
Reed, J., the United States District Court for the Dis­
trict of Nevada does not and will not make a practice
of addressing the merits of issues first raised in a reply,
as the opposing party is not afforded any opportunity
to respond to new issues raised in a reply, which is

17
ordinarily the last document submitted prior to the
court’s ruling on a motion. Plaintiff’s first claim for re­
lief arose out of transactions involving the sale of cor­
poration A’s stock to its Employee Stock Option Plan.
Plaintiff argued that defendant’s role in implementing
the transactions resulted in a loss for plaintiff and a
personal gain for defendant. Federal Rule of Civil Pro­
cedure 9(b) provides: “In alleging fraud ... a party
must state with particularity the circumstances con­
stituting fraud.. . .” Rule 9(b) imposes this heightened
pleading requirement so that the fraud-action defend­
ant “can prepare an adequate answer from the allega­
tions.” Odom v. Microsoft Corp., 486 F.3d 541, 553 (9th
Cir. 2007) (internal quotation marks omitted). Apply­
ing this particularity requirement, the Ninth Circuit
has held that a plaintiff must plead “times, dates,
places” and other details. E.g. Semegen v. Weidner, 780
F.2d 727, 731 (9th Cir. 1985). “How much additional
specificity is required depends on the nature of the in­
dividual case.” Arroyo v. Wheat, 591 F. Supp. 141, 144
(D.Nev. 1984).
The court found that the facts pleaded were more
than sufficient to constitute a short and plain state­
ment of a claim for breach of fiduciary duty under Fed.
R. Civ. P. 8(a). Review on a motion pursuant to Fed. R.
Civ. P. 12(b)(6) is normally limited to the complaint it­
self. See Lee v. City of L.A., 250 F.3d 668, 688 (9th Cir.
2001). If the district court relies on materials outside
the pleadings in making its ruling, it must treat the
motion to dismiss as one for summary judgment and
give the nonmoving party an opportunity to respond.

18
Fed. R. Civ. P. 12(b); see United States v. Ritchie, 342
F.3d 903, 907 (9th Cir. 2003). “A court may, however,
consider certain materials - documents attached to the
complaint, documents incorporated by reference in the
complaint, or matters of judicial notice - without con­
verting the motion to dismiss into a motion for sum­
mary judgment.” Ritchie, 342 F.3d at 908. If documents
are physically attached to the complaint, then a court
may consider them if their “authenticity is not con­
tested” and “the plaintiff’s complaint necessarily relies
on them.” Lee, 250 F.3d at 688 (citation, internal quo­
tations, and ellipsis omitted). A court may also treat
certain documents as incorporated by reference into
the plaintiff’s complaint if the complaint “refers exten­
sively to the document or the document forms the basis
of the plaintiff’s claim.” Ritchie, 342 F.3d at 908. Fi­
nally, if adjudicative facts or matters of public record
meet the requirements of Fed. R. Evid. 201, a court
may judicially notice them in deciding a motion to dis­
miss. Id. at 909; see Fed. R. Evid. 201(b) (“A judicially
noticed fact must be one not subject to reasonable dis­
pute in that it is either (1) generally known within
the territorial jurisdiction of the trial court or (2) capa­
ble of accurate and ready determination by resort to
sources whose accuracy cannot reasonably be ques­
tioned.”).
It is well established that a single course of wrong­
ful conduct may give rise to more than a single cause
of action. See Lawlor v. Nat’l Screen Serv. Corp., 349
U.S. 322, 327-28, 75 S. Ct. 865, 99 L. Ed. 1122 (1955).
Where two claims involve the same course of conduct,

19
but involve a different time period, claim preclusion
may not bar the subsequent suit. Id. at 328; see
Harkins Amusement Enters., Inc. v. Harry Nace Co.,
890 F2d 181,183 (9th Cir. 1989) (“Failure to gain relief
for one period of time does not mean that the plaintiffs
will necessarily fail for a different period of time.”).
Evidence of repeated conduct of the same type, but re­
lating to a later period of time than was litigated in an
earlier action, may involve evidence of the same type
as the earlier period, but the temporal difference
alone may mean that the evidence is not identical. See
Round Hill Gen. Improvement Dist. v. B-Neva, Inc., 96
Nev. 181, 606 P.2d 176, 178 (Nev. 1980) (stating “if
appellant’s claim is based upon evidence of new and
independent delinquencies,” then there is no “identity
of the facts”). It appears that the majority rule for
claims for damages is that claim preclusion extends to
claims in existence at the time of the filing of the orig­
inal complaint in the first lawsuit and any additional
claims actually asserted by supplemental pleading.
See Hatch v. Boulder Town Council, 471 F.3d 1142,
1149 (10th Cir. 2006) (“[A] claim should not be pre­
cluded merely because it is based on facts that arose
prior to the entry of judgment in the previous action”);
Rawe v. Liberty Mut. Fire Ins. Co., 462 F.3d 521, 530
(6th Cir. 2006) (noting that the “majority rule” is “ ‘that
an action need include only the portions of a claim
due at the time of commencing the action’ because
‘the opportunity to file a supplemental complaint is not
an obligation’”). Claim preclusion applies to preclude
an entire second suit that is based on the same set of
facts and circumstances as the first suit, while issue

20

preclusion applies to prevent relitigation of only a spe­
cific issue that was decided in a previous suit between
the parties, even if the second suit is based on different
causes of action and different circumstances. Now be­
fore the Court is Defendant’s Motion to Dismiss. De­
fendant argues that Plaintiff’s first claim for relief
fails to comply with the heightened pleading require­
ments of Fed. R. Civ. P. 9(b), and that Plaintiff’s sec­
ond claim for relief is barred by res judicata/claim
preclusion. 1 Plaintiff has opposed the motion, and
Defendant has replied. Plaintiff’s First Claim for Re­
lief alleges sufficient facts to state a claim for relief,
even after disregarding any allegations that relate to
fraud or mistake. Plaintiff’s Second Claim for Relief is
not barred by the claim preclusive effect of the earlier
state court judgment.
Petitioner DaCosta, Civil Rights Claim § 1983 18CV-2948, asserts the elements of a claim where relief
can be granted for loss of Liberty, in detail at pages 10
thru 13, and page 12 covers the Court fraud, for the
unreasonable seizure on December 6, 2012, the two
years and six months wait for a trial by a Jury, denied
by the prosecutor decision for a trial without a Jury for
a pretext allegation, where the prosecution suppress
evidence in favor the petitioner to find a verdict of
guilty, and whereas, the false written statements, tam­
pering with the public record of the Court Certificate
of Disposition, read; plead guilty to Harassment 2nd,
in full satisfaction of Stalking 3rd, see: App. 23-32, whether
entered intentional or by mistake, the false written
statement in the State of N.Y. is a Title K-Offences

21
involving fraud, Article 175 - Penal L 175.25 (2012),
the appeal to the Appellate Term of the Supreme Court
for the State of New York Docket No. 2015-1433 W CR,
Lower Court Doc. No. 12-4996, that on February 21,
2019, reversed and dismissed the accusatory instru­
ment, is an acquittal, that proves the fraud negligence
at Court, regardless of outcome, and on the Declaration
to show cause, the claim statement in detail from page
1 thru 5, . . . and from page 8 thru 14, on page 13 the
petitioner challenged the decision to dismiss and issue
an injunction is unjust and inconsistent with the con­
cepts set out by this Court. Hereto, petitioner argues
Civil Rights 15-CV-8500, was decided on the same er­
rors, that, are not harmless errors but fatal errors to
the vindication of § 1983 Civil Rights Claim for the loss
of Liberty. (DaCosta IV) See: Mendes Da Costa v. Pe­
reira, 18-CV-2948, 2018 U.S. Dist. LEXIS 81924.
Honorable, Judge Cathy Seibel, knowledge of 10CV-4125, trial decision termination on November 14,
2012, by a continuum of errors apparent from record,
of previous claim being decided on December 14, 2012,
render a distorted conception of the filing for writ of
mandamus, as for matters already decided by the
Court, is a fatal error to the Civil Rights claim, allow­
ing the defendants tortious conduct to contravene the
rule of law, and gradually encroach infringements
against U.S. Const. Law, the unlawful seizure of De­
cember 6, 2012, could not at any time been litigated
during the proceedings of lO-CV-4125, decided in favor
of defendants, and terminated November 14, 2012,
the December 6, 2012, false allegation seizure by RO.

22

Pereira, was made in corrupt intent to retaliate, the
Mount Vernon Police Department, operates only one
precinct from the Court House, and the continued sei­
zures at one incident site, involves persons in nexus to
the aggravated trespasses, the City Court prosecutor
decide not to prosecute, and the City Court Clerk, Cer­
tificate of Disposition false written statements of peti­
tioner pleading guilty, speak for itself, of the tampering
with a public record with the intent to deceive, or in­
jure, or to conceal the wrongdoing, for the reasons
stated above, claim preclusion res judicata decision is
erroneous.
ISSUE TWO: Whether the right to trial by a
jury mandated, by U.S. Const. Fifth, Sixth, and Four­
teenth Amendments, and Due Process Clauses, and
U.S. Const, art. Ill § 2, and the concepts set out by this
Court in Apprendi and Alleyne was violated when the
United States Court of Appeals for the Second Circuit
of New York, affirm the District Court opinion of claim
preclusion Res Judicata Bar Order under 28 U.S.C.
§ 1651, an appellate court sitting as a fact finder can­
not affirm a not factual position of Law that was not
presented to a Jury, the § 1983, for the seizure on false
allegation of Stalking 3rd, deprivation of Liberty for
47 days, the two years and six months malicious pros­
ecution until 2015, when the allegation was dismissed
without a trial by a Jury, and City of Mount Vernon
Court prosecutor, suppressed evidence in favor of peti­
tioner in a trial without a Jury, to find a verdict of guilty
for a pretext allegation Harassment 2nd, whereas the
Court Clerk tamper with the public record by false

23

written statements on the Certificate of Disposition:
plead guilty to Harassment 2nd, in full satisfaction, is
a device of deceit, whether made intentional or by mis­
take in the State of N.Y. is a Title K-Offence involving
fraud, Article 175 - Penal L 175.25 (2012), 175.20
(2018) . . . implies the intent to contravene and infringe
the right to be free from unreasonable seizures, and
right to a trial by a Jury, while purporting to be author­
ity, to conceal the infringement by wrongdoing?
Petitioner DaCosta, was unreasonably seized De­
cember 6, 2012, on false allegation of PL 120.50 03
Stalking 3rd, a misdemeanor that carries a maximum
sentence of one Year, and given a $2000.00 bail, and on
December 10, 2012, a pretext superseding misde­
meanor information count two, PL 2402602 V2, Har­
assment 2nd, that carries a maximum sentence of 15
days, and imprisoned 47 days until January 23, 2013,
when I pay for the bail, the disparity between a one
Year maximum sentence, and a 15 days sentence is
clear, and do not justify the 15 appearances in Court
until March 2015, and the denial of procedural due
process of law, of a trial by a Jury, by the prosecutor
dismissal of the false allegation, and proceeding to a
trial without a Jury, where the evidence in favor of de­
fense, of a previous deposition of the Peoples witness
at the U.S.D.C. on July 11,2012 was suppressed, to find
a guilty verdict for the pretext Harassment 2nd, and to
continue the abuse of process by false written state­
ments on the Court Certificate Of Disposition, of plead
guilty to Harassment 2nd, in full satisfaction of Stalk­
ing 3rd.

24
Apprendi v. New Jersey, 530 U.S. 466, 120 S. Ct.
2348, 147 L. Ed. 2d 435 (2000), Stevens, J., opinion,
Under the Due Process Clause of U.S. Const, amend. V,
and the notice and jury trial guarantees of U.S. Const,
amend. VI, any fact (other than prior conviction) that
increases the maximum penalty for a crime must be
charged in an indictment, submitted to a jury, and
proven beyond a reasonable doubt. U.S. Const, amend.
XTV provides for the proscription of any deprivation of
liberty without due process of law, and U.S. Const,
amend. VI guarantees that in all criminal prosecu­
tions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury. Under the
due process clause of the Federal Constitution’s Four­
teenth Amendment — and under the Constitution’s
Sixth Amendment guarantee of a right to a jury trial a criminal defendant is entitled to a jury determina­
tion that the defendant is guilty beyond a reasonable
doubt of every element of the crime with which the de­
fendant is charged, where the historical foundation for
the United States Supreme Court’s recognition of
these principles extends down centuries into common
law; a state cannot circumvent these protections by re­
defining the elements that constitute different crimes
by characterizing them as factors that bear solely on
the extent of punishment. At stake in this case are con­
stitutional protections of surpassing importance: the
proscription of any deprivation of liberty without “due
process of law,” Arndt. 14, and the guarantee that “in
all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury,”
Arndt. 6. together, these rights indisputably entitle a

25

criminal defendant to “a jury determination that [he]
is guilty of every element of the crime with which he
is charged, beyond a reasonable doubt.” United States
v. Gaudin, 515 US. 506, 132 L. Ed. 2d 444, 115 S. Ct.
. 2310 (1995); see also Sullivan v. Louisiana, 508 U.S.
275, 278, 124 L. Ed. 2d 182, 113 S. Ct. 2078 (1993);
Winship, 397 U.S. at 364.
This case turns on the seemingly simple question
of what constitutes a “crime.” Under the Federal Con­
stitution, “the accused” has the right (1) “to be in­
formed of the nature and cause of the accusation” (that
is, the basis on which he is accused of a crime), (2) to
be “held to answer for a capital, or otherwise infamous
crime” only on an indictment or presentment of a
grand jury, and (3) to be tried by “an impartial jury of
the State and district wherein the crime shall have
been committed.”
Arndts. 5 and 6. See also Art. Ill, § 2, cl. 3 (“The
Trial of all Crimes . .. shall be by Jury”). Further, the
Court has held that due process requires that the jury
find beyond a reasonable doubt every fact necessary to
constitute the crime. In re Winship, 397 U.S. 358, 364,
25 L. Ed. 2d 368, 90 S. Ct. 1068 (1970).
“The Due Process Clause protects the accused
against conviction except beyond a reasonable doubt of
every fact necessary to constitute the crime with which
he is charged”). First, the Court endorses the following
principle: “Tt is unconstitutional for a legislature
to remove from the jury the assessment of facts that
increase the prescribed range of penalties to which a

26

criminal defendant is exposed. It is equally clear that
such facts must be established by proof beyond a rea­
sonable doubt.’ ” Ante, at 24 (emphasis added) (quoting
Jones, 526 U.S. at 252-253 (Stevens, J., concurring).
Second, the Court endorses the rule as restated in Jus­
tice Scalia’s concurring opinion in Jones. See ante, at
24. There, Justice Scalia wrote: “It is unconstitutional
to remove from the jury the assessment of facts that
alter the congressionally prescribed range of penalties
to which a criminal defendant is exposed.” Jones, 526
U.S. at 253 (emphasis added). Thus, the Court appears
to hold that any fact that increases or alters the range
of penalties to which a defendant is exposed - which,
by definition, must include increases or alterations to
either the minimum or maximum penalties - must be
proved to a jury beyond a reasonable doubt.
United States u. Alleyne, 133 S. Ct. 2151 186
L. Ed. 2d 314 (2013). The Sixth Amendment provides
that those “accused” of a “crime” have the right to a
trial “by an impartial jury.” This right, in conjunction
with the Due Process Clause, requires that each ele­
ment of a crime be proved to the jury beyond a reason­
able doubt. The substance and scope of this right
depend upon the proper designation of the facts that
are elements of the crime. The touchstone for deter­
mining whether a fact must be found by a jury beyond
a reasonable doubt is whether the fact constitutes an
“element” or “ingredient” of the charged offense. Both
kinds of facts alter the prescribed range of sentences
to which a defendant is exposed and do so in a manner
that aggravates the punishment. Facts that increase

27
the mandatory minimum sentence are therefore ele­
ments and must be submitted to the jury and found
beyond a reasonable doubt.
The U.S. Supreme Court held that the Sixth
Amendment provides defendants with the right to
have a jury find those facts beyond a reasonable doubt.
While Harris limited Apprendi to facts increasing the
statutory maximum, the principle applied in Apprendi
applies with equal force to facts increasing the manda­
tory minimum, It is indisputable that a fact triggering
a mandatory minimum alters the prescribed range of
sentences to which a criminal defendant is exposed.
In Harris v. United States, (2002) 536 U.S. 545,122
S. Ct. 2406, 153 L. Ed. 2d 524, 2002 U.S. Lexis 4652,
the U.S. Supreme Court held that judicial fact finding
that increases the mandatory minimum sentence for a
crime is permissible under the Sixth Amendment. Har­
ris drew a distinction between facts that increase the
statutory maximum and facts that increase only the
mandatory minimum. The U.S. Supreme Court con­
cludes that this distinction is inconsistent with the
decision in Apprendi u. New Jersey, (2000) 530 U.S. 466,
120 S. Ct. 2348, 147 L. Ed. 2d 435 (2000) U.S. Lexis
4304, and with the original meaning of the Sixth
Amendment. Any fact that, by law, increases the pen­
alty for a crime is an “element” that must be submitted
to the jury and found beyond a reasonable doubt. It fol­
lows, then, that any fact that increases the mandatory
minimum is an “element” that must be submitted to
the jury. Accordingly, Harris is overruled. (Thomas, J.,
joined by Ginsburg, Breyer, Sotomayor, and Kagan, JJ.)

V

28
Because the legally prescribed range is the pen­
alty affixed to the crime, it follows that a fact increas­
ing either end of the range produces a new penalty and
constitutes an ingredient of the offense. A fact that in­
creases a sentencing floor, thus, forms an essential in­
gredient of the offense. Moreover, it is impossible to
dispute that facts increasing the legally prescribed
floor aggravate the punishment. The core crime and
the fact triggering the mandatory minimum sentence
together constitute a new, aggravated crime, each ele­
ment of which must be submitted to the jury. The es­
sential Sixth Amendment inquiry is whether a fact is
an element of the crime. When a finding of fact alters
the legally prescribed punishment so as to aggravate
it, the fact necessarily forms a constituent part of a
new offense and must be submitted to the jury.
ISSUE THREE: Under 42 U.S.C. § 1983, Civil
Rights claim for loss of Liberty, and invoking the pro­
tections of the Fourth and the Fourteenth Amend­
ments Due Process Clause, and Fifth Amendment
protection from deprivation of life, liberty, or property
without Due Process of Law, the December 6,2012, un­
reasonable seizure, the denial of trial by a jury, mali­
cious prosecution, and abuse of process false written
statements tampering with the City of Mount Vernon
Court Certificate of Disposition, to claim the petitioner
plead guilty, when in fact there was not such a plead­
ing, hereto, conceals the denial to a trial by a Jury, for
the Stalking 3rd false allegation, they’re undisputed
facts of law on record for prima facie Const, torts that
include the dates, persons, place, who did what, by

29
simple, clear, and concise statements within liberal in­
terpretation of a well pleaded petition to the Court, pe­
titioner ask this Court to review the decisions in this
Civil Rights claim by District Court Hon. Judge Cathy
Seibel, who was the sitting Judge for the stipulation
settlement, and dismissal with prejudice of 42 U.S.C.
§ 1983 10-CV-4125, and since the first grievance mat­
ters at hand, denied federal Court rule 12(b)(6), stan­
dard of liberal interpretation for review of claims, and
ignored rule 9(b) standard for heightened review, but
has throughout applied an erroneous and distorted
conception of fact law, to the limit of government’s power
to infringe on certain constitutional freedoms, by at
first making the wrong statement of the petitioner
wants to relitigate matters previously decided by the
Court, and second that petitioner fail to state a claim
where relief can be granted, and from the two wrong
inferences deny petitioner’s Const. Civil Rights claim.
The appeal to the Appellate Term of the Supreme
Court for the State of New York, People v. Da Costa,
Jose, App. term doc. # 2015-1433 W CR (2019), Lower
Court DoC. No. 12-4996, that on February 21, 2019, re­
versed and dismissed the accusatory instrument, is an
acquittal from the pretext false allegation instrument
verdict, and also proves there was not a pleading of
guilty, on the date of May 12, 2015 by the petitioner at
the City of Mount Vernon, N.Y. Court, see: Mendes Da
Costay. Pereira, 18-CV-2948 2018, U.S. Dist. LEXIS
81924, at Discussion, and at App. 20-22, 23-32.
In Monell et al. u.Dept. ofSoc. Serv. of the City of
N. Y. et al., 436 U.S. 658, 98 S. Ct. 2018, 56 L. Ed. 2d

30

611 (1978), Stevens, J., the United States Supreme
Court analysis of the legislative history of the Civil
Rights Act of 1871, 17 Stat. 13, compels the conclu­
sion that Congress did intend municipalities and
other local government units to be included among
those persons to whom 42 U.S.C.S. §1983 applies. Lo­
cal governing bodies, therefore, can be sued directly
under § 1983 for monetary, declaratory, or injunctive
relief where the action that is alleged to be unconsti­
tutional implements or executes a policy statement,
ordinance, regulation, or decision officially adopted
and promulgated by that body’s officers. Moreover,
although the touchstone of the § 1983 action against a
government body is an allegation that official policy is
responsible for a deprivation of rights protected by the
Constitution, local governments, by the very terms of
the statute, may be sued for constitutional depriva­
tions visited pursuant to governmental custom even
though such a custom has not received formal approval
through the body’s official decision making channels.
Owen v. Independence, 445 U.S. 622, 100 S. Ct.
1398, 63 L. Ed. 2d 673, 1980 US. LEXIS 14, Brennan
J., A municipality has no immunity.from liability un­
der § 1983, flowing from its constitutional violations
and may not assert the good faith of its officers as a
defense to such liability. Pp. 635-658. (a) By its terms,
§ 1983, “creates a species of tort liability that on its
face admits of no immunities.” Imbler v. Pachtman, 424
U.S. 409, 417. Its language is absolute and unqualified,
and no mention is made of any privileges, immunities,
or defenses that may be asserted. Rather, the statute

31
imposes liability upon “every person” (held in Monell v.
New York City Dept, of Social Services, 436 U.S. 658,
to encompass municipal corporations) who, under
color of state law or custom, “subjects, or causes to be
subjected, any citizen of the United States ... to the
deprivation of any rights, privileges, or immunities se­
cured by the Constitution and laws.” And this expan­
sive sweep of § 1983s language is confirmed by its
legislative history. Pp. 635-636. (b) Where an immunity
was well established at common law and where its ra­
tionale was compatible with the purposes of §1983, the
statute has been construed to incorporate that immun­
ity. But there is no tradition of immunity for municipal
corporations, and neither history nor policy supports a
construction of that would justify the qualified immun­
ity accorded respondent city by the Court of Appeals.
Pp. 637-644.
(c) ... The principle of sovereign immunity from
which a municipality’s immunity for “governmental”
functions derives cannot serve as the basis for the
qualified privilege respondent city claims under
§ 1983, since sovereign immunity insulates a municipality from unconsented suits altogether, the presence
or absence of good faith being irrelevant, and since the
municipality’s “governmental” immunity is abrogated
by the sovereign’s enactment of a statute such as
§ 1983, making it amenable to suit. And the doctrine
granting a municipality immunity for “discretionary”
functions, which doctrine merely prevented courts
from substituting their own judgment on matters
within the lawful discretion of the municipality, cannot

32

serve as the foundation for a good-faith immunity un­
der §1983, since a municipality has no “discretion” to
violate the Federal Constitution. Pp. 644-650. (d) Re­
jection of a construction of § 1983 that would accord
municipalities a qualified immunity for their goodfaith constitutional violations is compelled both by the
purpose of § 1983 to provide protection to those per­
sons wronged by the abuse of governmental authority
and to deter future constitutional violations, and by
considerations of public policy. In view of the qualified
immunity enjoyed by most government officials, many
victims of municipal malfeasance would be left reme­
diless if the city were also allowed to assert a goodfaith defense. The concerns that justified decisions
conferring qualified immunities on various govern­
ment officials - the injustice, particularly in the ab­
sence of bad faith, of subjecting the official to liability,
1980 U.S. LEXIS 14, and the danger that the threat of
such liability would deter the official’s willingness to
execute his office effectively - are less compelling, if not
wholly inapplicable, when the liability of the municipal
entity is at issue. Pp. 650-656.
In Mapp v. Ohio, 367 U.S. 643, 81 S. Ct. 1684, 6
L. Ed. 2d 1081 (1961), Clark, J., the Court held that
the due process clause of the Fourteenth Amendment
extended to the States the Fourth Amendment right
against unreasonable searches and seizures. And, as
necessary to ensure such rights, the exclusionary rule,
which prohibited the introduction into evidence of ma­
terial seized in violation of the Fourth Amendment,
likewise applied to the State’s prosecution of state

33

crimes. The doctrines of the Fourth and Fifth Amend­
ments apply to all invasions on part of the government
and its employees of the sanctity of a man’s home and
the privacies of life.
Because the Fourth Amendment’s right of privacy
has been declared enforceable against the States
through the Due Process Clause of the Fourteenth
Amendment, it is enforceable against them by the
same sanction of exclusion as is used against the Fed­
eral Government.
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570, 127
S. Ct. 1955,167 L. Ed. 2d 929 (2007). The Court should
not dismiss the complaint if the plaintiff has stated
“enough facts to state a claim to relief that is plausible
on its face”.
In Manuel v. City of Joliet, III., 137 S. Ct. 911 (2017),
the Fourth Amendment protects “[t]he right of the peo­
ple to be secure in their persons . . . against unreason­
able . . . seizures.” Manuel’s complaint seeks just that
protection. Government officials, it recounts, detained
- which is to say, “seiz[ed]” - Manuel for 48 days fol­
lowing his arrest.
Cook v. Sheldon, 41 F.3d73, 78 (2d Cir. 1994). The
right not to be arrested without probable cause is a
clearly established right. (“It is now far too late in our
constitutional history to deny that a person has a
clearly established right not to be arrested without
probable cause.”). Officers who arrested civil rights
plaintiff for violation of Vehicle Identification Number
(YIN) statute were not entitled to qualified immunity

34
where charges against plaintiff were dismissed and
there was absence of probable cause for arrest. § 1983.
New York General Municipal Law ~ 50 allows for
an otherwise time barred cause of action against a mu­
nicipality for failing to produce certain evidence for the
benefit of a plaintiff whose previous action was lost due
to the municipality’s failure to produce said evidence.
A cause of action in law or equity against any munici­
pality in the state of New York, or its proper officers,
arising from the action of such municipality in deroga­
tion of its previous grant or covenant, where a previous
action shall not have succeeded, in whole or in part,
owing to the failure of the said municipality to produce
or prove certain written evidence, which was essential
to the plaintiff’s claim, shall not be barred by the oper­
ation of the statutes limiting the time for the enforce­
ment of civil remedies in favor of the successor in
interest to the person entitled to any benefit or dam­
ages by reason of such grant, covenant or action of said
municipality. Federal Rule of Evidence 804(b)(6) sets
out a principle of forfeiture by wrongdoing based on
the defendant’s misconduct that procured a witness’s
unavailability at trial.

35

CONCLUSION AND PRAYER
For the reasons stated in this petition, the United
States Court of Appeals for the Second Circuit of New
York decided important federal questions: (1) that have
not been, but should be, settled by this Court, and (2)
in ways that conflict with relevant decisions of this
Court. Therefore, petitioner respectfully asks this
Court to grant a writ of certiorari to the United States
Court of Appeals, on the issues presented in this peti­
tion.
Respectfully submitted,
Jose M. Da Costa
Petitioner Pro Se
86 Gramatan Ave., Apt. 40
Mount Vernon, N.Y. 10550
Tel. number: 914-774-3615
Email: jamdcaol@gmail.com

